                                   Report Template Version = 04-30-05_rev.15




Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





 AGENCY FOR HEALTHCARE 

 RESEARCH AND QUALITY: 

MONITORING PATIENT SAFETY 

         GRANTS





                     Daniel R. Levinson

                      Inspector General


                        June 2006

                      OEI-07-04-00460

                                                                Report Template Version = 04-30-05_rev.15




               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                                                                           Report Template Version = 04-30-05_rev.15




Δ     E X E C U T I V E                     S U M M A R Y 




                      OBJECTIVE
                      To determine whether the Agency for Healthcare Research and
                      Quality’s (AHRQ) monitoring of Financial Status Reports, performance
                      reports, and the grant closeout process for patient safety grants are in
                      accordance with Federal requirements.


                      BACKGROUND
                      Congress enacted the Healthcare Research and Quality Act of 1999
                      (Public Law 106-129), which established AHRQ within the Department
                      of Health and Human Services (HHS). Congress directed AHRQ to
                      designate funds from its appropriation for grants to study patient safety
                      in H.R. Rep. No. 106-645, at 102 (2000). For fiscal years (FY) 2001
                      through 2003, AHRQ awarded 120 grants totaling $128 million to
                      conduct research on improving patient safety and reducing medical
                      errors. Federal regulations and departmental policies (e.g., Grant
                      Policy Directives from the Office of Grants) govern HHS grants
                      monitoring.

                      To determine AHRQ’s compliance with patient safety grant
                      requirements relating to Financial Status Reports, performance reports,
                      and the closeout process, the Office of Inspector General (OIG) selected
                      a stratified random sample from the population of 120 patient safety
                      grants that were awarded in FYs 2001, 2002, and/or 2003. The sample
                      consisted of 39 grants from 2 strata. Although OIG picked a sample
                      randomly, the small sample and population sizes did not allow OIG to
                      make any projections about the entire population of patient safety
                      grants.


                      FINDINGS
                      Most Financial Status Reports were not received or were late. Of the
                      grants sampled, 30 percent of Financial Status Reports were not
                      received and 43 percent were late, representing a combined total of
                      $50.6 million in dispensed grant funds. When contacted 1 month later,
                      AHRQ staff confirmed that the Financial Status Reports not found
                      during the initial review of the official grant file still had not been
                      received. The lack of reports received or received timely may be due to
                      misinterpretation of Federal regulations addressing financial reporting
                      associated with no-cost extensions, AHRQ staff not using enforcement



    OEI-07-04-00460   AGENCY FOR HEALTHCARE RESEARCH AND QUALITY: MONITORING PATIENT SAFETY GRANTS                 i
                                                                         Report Template Version = 04-30-05_rev.15




E X E C U T I V E                S U      M M A R Y


                    tools to help to ensure timely receipt of these reports, and the lack of a
                    tracking system for these reports.
                    Performance reports generally complied with Federal requirements.
                    At the time of OIG’s review of the official grant files, 97 percent of the
                    most recently required annual performance reports were in the file, and
                    94 percent were received timely. AHRQ staff reported that the timely
                    receipt of these reports may be due to frequent interaction between
                    grantees and AHRQ staff concerning the grant’s progress, and AHRQ’s
                    use of a tracking system to record receipt of these reports.
                    Federal requirements for grant closeouts were not met. Of the
                    sampled grants, seven official grant files were eligible for closeout.
                    Two of these grants were closed in accordance with Federal
                    requirements. Three grants, however, lacked documentation of required
                    closeout reports, liquidation of assets, and/or results of the final
                    research. AHRQ staff did not complete the closeout process for the
                    remaining two grants despite the fact that both grant files contained all
                    required closeout documents.

                    AHRQ staff stated that the closeout of these grants was delayed due to
                    a large backlog of grant files awaiting completion of the closeout
                    process. Patient safety grants comprised only part of this overall
                    backlog. Recently, AHRQ hired a contractor to assist in reducing this
                    backlog and to assist in the collection of delinquent reports for closeout.
                    AHRQ staff told OIG that the contractor’s actions improved the
                    efficiency of the closeout process and reduced the number of grants
                    awaiting closeout.


                    RECOMMENDATIONS
                    The AHRQ practices inhibit its ability to adequately oversee and
                    evaluate grantees’ overall performance and its stewardship of Federal
                    funds. While AHRQ appears to manage the receipt of performance
                    reports well, other areas identified in this report reveal weaknesses that
                    impact the accountability of patient safety grant funds.

                    Therefore, OIG recommends that AHRQ:
                    Require submission of interim financial information of prior year
                    expenditures before future funding is authorized. The AHRQ
                    methods for obtaining this information could include: semiannual
                    Financial Status Reports, expansion of financial information currently



  OEI-07-04-00460   AGENCY FOR HEALTHCARE RESEARCH AND QUALITY: MONITORING PATIENT SAFETY GRANTS                ii
                                                                         Report Template Version = 04-30-05_rev.15




E X E C U T I V E                S U      M M A R Y


                    reported on the performance reports, or a separate process for
                    accounting for financial expenditures.
                    Establish a tracking system for Financial Status Reports. AHRQ staff
                    reported that the system for tracking performance reports was important
                    to the timely receipt of performance reports. Thus, AHRQ should use
                    lessons learned from this system while implementing a similar system for
                    Financial Status Reports.

                    Require grantees with no-cost extensions to submit Financial Status
                    Reports in compliance with Federal requirements. Clarification of this
                    Federal requirement for AHRQ staff and grantees is needed to ensure
                    compliance. Grantees with no-cost extensions must submit Financial
                    Status Reports at least annually, unless they specifically request and
                    receive an extension.
                    Ensure that grants awaiting closeout are closed promptly. AHRQ
                    should continue to take positive steps to eliminate the backlog of grants
                    awaiting closeout and to ensure that future closeouts are processed timely.


                    AGENCY COMMENTS
                    AHRQ responded that it agrees with the findings in the report and that
                    the recommendations are reasonable. AHRQ indicated that the
                    recommendations reinforce ongoing improvements begun subsequent to
                    the FYs that we reviewed or support already envisioned activities.
                    Specifically, AHRQ indicated that it (1) can pursue the use of the
                    progress report to identify the status of prior year funds, (2) has begun
                    development of a tracking system for Financial Status Reports, (3) will
                    develop a procedure to ensure compliance with Federal regulations
                    when grantees make use of no-cost extensions, and (4) has made
                    progress in dropping closeout periods from 400 days to 114 days.


                    OFFICE OF INSPECTOR GENERAL RESPONSE
                    OIG recognizes the positive actions AHRQ has both taken or is planning
                    to meet the intent of our second and third recommendations as well as
                    the agency’s progress toward compliance with closeout deadlines, our
                    fourth recommendation. In its final management decision
                    memorandum, OIG requests AHRQ to provide more specific information
                    on how it intends to address the first and fourth recommendations.
                    Regarding the first recommendation, AHRQ indicates that it can pursue
                    the use of progress reports to gather financial information on prior-year


  OEI-07-04-00460   AGENCY FOR HEALTHCARE RESEARCH AND QUALITY: MONITORING PATIENT SAFETY GRANTS               iii
                                                                         Report Template Version = 04-30-05_rev.15




E X E C U T I V E                S U      M M A R Y


                    funds. Committing to do so or providing another method to obtain
                    interim financial status information would address this
                    recommendation. As for the fourth recommendation, despite significant
                    progress in reducing its backlog, AHRQ remains out of compliance with
                    the 90-day requirement for grants ending in 2005. AHRQ does
                    anticipate “. . . continued improvement as grantees realize that AHRQ
                    considers submission of final reports a priority.” AHRQ may want to
                    provide the actions it will take if grantees fail to realize the priority it
                    has placed on the submission of final reports.




  OEI-07-04-00460   AGENCY FOR HEALTHCARE RESEARCH AND QUALITY: MONITORING PATIENT SAFETY GRANTS                iv
                                                                                    Report Template Version = 04-30-05_rev.15




Δ   T A B L E           O F             C O N T E N T S                                  




          E X E C U T I V E S U M M A R Y . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i




          I N T R O D U C T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1





          F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

                      Most Financial Status Reports were not received or were late . . . . 6 


                      Performance reports generally complied with Federal 

                      requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9 


                      Federal requirements for grant closeouts were not met . . . . . . . . . 9 





          R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

                      Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 


                      Office of Inspector Genereal Response . . . . . . . . . . . . . . . . . . . . . . 12 





          A P P E N D I X . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

                      Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 





          A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

                                                                           Report Template Version = 04-30-05_rev.15




Δ     I N T R O D U C T I O N                             




                      OBJECTIVE
                      To determine whether the Agency for Healthcare Research and
                      Quality’s (AHRQ) monitoring of Financial Status Reports, performance
                      reports, and the grant closeout process for patient safety grants are in
                      accordance with Federal requirements.


                      BACKGROUND
                      The Department of Health and Human Services (HHS) funds almost
                      one-quarter of all Federal outlays and administers more grant dollars
                      than all other Federal agencies combined.1 The Office of Inspector
                      General (OIG) identified grants management as one of the top
                      management challenges for HHS. The OIG’s mission is to ensure that
                      Federal funds are used appropriately to maximize their intended
                      purpose and that fraud, waste, and abuse, if present, are identified and
                      eliminated.2
                      Congress enacted the Healthcare Research and Quality Act of 1999
                      (Public Law 106-129), which established AHRQ within HHS. Congress
                      directed AHRQ to designate funds from its appropriation for grants to
                      study patient safety.3 For fiscal years (FY) 2001 through 2003, AHRQ
                      awarded 120 patient safety grants totaling $128 million to conduct
                      research on improving patient safety and reducing medical errors.4
                      Monitoring Requirements
                      Federal regulations and departmental policies (e.g., Grant Policy
                      Directives (GPD) issued by the Office of Grants) govern HHS grants
                      monitoring.5 AHRQ is required to collect and assess grantees’ Financial
                      Status Reports (Standard Forms 269 or 269A) and performance reports

                      1 “HHS: What We Do.” Available online at http://www.hhs.gov/about/whatwedo.html/.

                       Accessed April 25, 2006.
                      2 “FY 2005 Performance and Accountability Report,” Appendix A. Available online at
                       http://www.hhs.gov/of/library/par05/pdfmenu/. Accessed April 25, 2006.
                      3 H.R. Rep. No. 106-645, at 102 (2000).

                      4 AHRQ’s Grants Management Officer furnished OIG an FY 2001-FY 2003 Summary of
                       Patient Safety Grants in November 2004. This summary, which listed all patient safety
                       grants, was used to select the sample.
                      5 See 45 CFR Part 74 (regulations establishing, in part, grant monitoring and reporting
                       requirements for HHS grants to universities, nonprofit organizations, and hospitals); and
                       the GPD Parts 3.01-3.07 (guidance to HHS offices on grants management issues, including
                       requirements for postaward monitoring and reporting).



    OEI-07-04-00460   AGENCY FOR HEALTHCARE RESEARCH AND QUALITY: MONITORING PATIENT SAFETY GRANTS
                                                                                                                  1
                                                                           Report Template Version = 04-30-05_rev.15




I N T R O D         U C T       I O N


                     (both interim and final), and ensure that the grant closeout process has
                     been completed. AHRQ may implement enforcement provisions, where
                     appropriate, for grantees that do not comply with Federal regulations
                     and/or departmental policies.6
                     Financial Monitoring. AHRQ staff use Financial Status Reports to
                     monitor grantees’ use of Federal funds. These reports must document
                     the financial aspects of the grant including unobligated balances, assets,
                     and outlays. A grantee’s business office normally completes and
                     submits the Financial Status Report to AHRQ.

                     Grantees must submit the Financial Status Report at least annually,
                     although AHRQ can require more frequent reporting, as it deems
                     necessary.7 Financial Status Reports submitted annually must be
                     received no later than 90 calendar days after each specified reporting
                     period; however, AHRQ may approve a request from the grantee for an
                     extension of the due date.8 Departmental policy requires AHRQ to take
                     timely action to advise grantees of noncompliance, including late
                     submission of a Financial Status Report, and to take appropriate
                     enforcement actions.9
                     Performance Monitoring. The performance report contains information
                     regarding the accomplishments of the grant. The performance report
                     must generally include a narrative discussion of the grantee’s progress
                     toward achieving the grant’s goals and objectives. 10 The Principal
                     Investigator, generally a grantee employee, has primary responsibility
                     for ensuring compliance with all grant requirements, including
                     completion of the performance report.
                     Grantees must submit the performance report at least annually,
                     although AHRQ can require more frequent reporting, as it deems
                     necessary. Performance reports submitted annually must be received
                     no later than 90 calendar days after the end of the specified reporting




                     6 45 CFR § 74.62(a). 


                     7 45 CFR § 74.52(a)(1)(iii). 


                     8 45 CFR § 74.52(a)(1)(iv). If quarterly or semiannual reporting periods are used, the 

                      reports are due no later than 30 days after each reporting period.
                     9 GPD Part 3.07.B.5.

                     10 45 CFR § 74.51(d).




  OEI-07-04-00460    AGENCY FOR HEALTHCARE RESEARCH AND QUALITY: MONITORING PATIENT SAFETY GRANTS
                                                                                                                  2
                                                                          Report Template Version = 04-30-05_rev.15




I N T R O D         U C T      I O N


                     period.11 AHRQ has the responsibility to initiate appropriate follow-up
                     action, as necessary, on delinquent reports.12
                     Grant Closeout Procedures. AHRQ must ensure through its grant
                     closeout procedures that the grantee has completed and submitted all
                     work outlined in the terms and conditions of the grant. Unless AHRQ
                     authorizes an extension, the grantee is required to liquidate all
                     obligations incurred no later than 90 calendar days after the funding
                     period or the date of completion of the award.13 Further, Federal
                     regulations require that a grantee must submit a final Financial Status
                     Report, a final performance report, and all other reports specified in the
                     terms and conditions of the grant no later than 90 calendar days after
                     the date of completion of the award.14 The grantee can request
                     extension of the final performance report and/or the final Financial
                     Status Report that is due as part of the grant closeout process.15
                     Federal regulations do not specify the type of notification (written or
                     verbal) that grantees must make when requesting an extension to
                     closeout their grant.

                     The final performance report indicates accomplishments under the
                     project and whether the research objectives were met or gives an
                     explanation of why they were not. Once accepted by the Project Officer,
                     an AHRQ employee, results from the final performance report are then
                     made available to the public. The Financial Status Report also must be
                     reconciled. The Grants Management Officer remains responsible for the
                     closeout of the grant until all requirements of the terms and conditions
                     are fulfilled, all reports have been received and accepted, and the
                     account is closed.16




                     11 45 CFR § 74.51(b). Alternatively, AHRQ may establish a due date based on the

                       anniversary dates of multiple year awards. If quarterly or semiannual reporting periods
                       are used, the reports are due no later than 30 days after each reporting period.
                     12 45 CFR § 74.62(a) and GPD Part 1.04D.1.i.

                     13 45 CFR § 74.71(b).

                     14 45 CFR § 74.71(a).

                     15 45 CFR § 74.71(a). AHRQ may approve extensions of closeout reports when the grantee

                       requests such an extension.
                     16 45 CFR § 74.71 and GPD Part 1.04D.1.i.




  OEI-07-04-00460    AGENCY FOR HEALTHCARE RESEARCH AND QUALITY: MONITORING PATIENT SAFETY GRANTS
                                                                                                                 3
                                                                          Report Template Version = 04-30-05_rev.15




I N T R O D         U C T      I O N


                     No-Cost Extensions
                     A no-cost extension is a written notice by the grantee to AHRQ to
                     initiate an extension of the period of the grant award.17 Such
                     extensions do not modify or eliminate Federal reporting requirements
                     for Financial Status Reports or performance reports. If a grantee wants
                     an extension for the Financial Status Report, the grantee must make a
                     specific request to AHRQ, and AHRQ must approve the request.18


                     METHODOLOGY
                     OIG selected a stratified random sample from the population of
                     120 patient safety grants that received funding in FYs 2001, 2002,
                     and/or 2003. The sample consisted of 39 grants from 2 strata.

                     The first stratum consisted of 12 grants that received patient safety
                     grant funding in FYs 2001, 2002, and/or 2003 and that AHRQ identified
                     as being complex or requiring additional administrative efforts.19
                     The second stratum consisted of the remaining 108 grants that received
                     patient safety grant funding in FYs 2001, 2002, and/or 2003. Grants
                     were sorted in descending order by the total grant dollars received in
                     the 3 FYs. To obtain a sample with varying amounts of total grant
                     dollars received, 27 grants were selected by a systematic process in
                     which OIG chose every fourth grant in the list. Although OIG picked a
                     sample randomly, due to the small sample and population sizes, this
                     sample was not designed to make any projections about the entire
                     population of patient safety grants.
                     Grant File Review
                     OIG developed a checklist based on Federal requirements to review
                     AHRQ’s official grant files for the 39 sampled grants. This file review
                     determined whether Financial Status Reports, performance reports, and
                     grant closeouts complied with Federal regulations and departmental




                     17 45 CFR § 74.25(d)(2).

                     18 45 CFR § 74.52(a)(1)(iv).

                     19 AHRQ defined complex grants as those with (a) projects involving carryover of funds in
                       multiple years, (b) supplemental awards issued during the project, and (c) multiple
                       subcontractors. AHRQ defined grants requiring additional administrative efforts as
                       those (a) with habitually large unobligated balances and (b) that repeatedly requested
                       carryover funds for the next awarding period.



  OEI-07-04-00460    AGENCY FOR HEALTHCARE RESEARCH AND QUALITY: MONITORING PATIENT SAFETY GRANTS
                                                                                                                 4
                                                                            Report Template Version = 04-30-05_rev.15




I N T R O D         U C T      I O N


                     policies.20 Specifically, OIG determined whether Financial Status
                     Reports were complete and timely, and whether these reports
                     documented the status of funds. Further, OIG determined whether
                     performance reports were complete and timely, and documented
                     (1) accomplishments of the grant goals, (2) objectives of research
                     findings, (3) circumstances when grant goals were not met, and
                     (4) developments that had a significant impact on the award-supported
                     activities.

                     OIG reviewed file documentation for seven of the sampled grants
                     identified by AHRQ as eligible for closeout to assess whether AHRQ had
                     taken appropriate administrative actions to closeout official grant files.
                     Where applicable, OIG looked for evidence of AHRQ’s enforcement
                     actions for grantees not in compliance with Federal regulations and
                     departmental policies.
                     Interviews
                     Upon completion of the review of the official grant files, OIG used a
                     structured survey to request additional information from AHRQ staff
                     (i.e., Project Officers, Grants Management Specialists, and the Grants
                     Management Officer) about the processes used to monitor these grants.
                     OIG interviewed 17 of 19 Project Officers, 21 the 7 Grants Management
                     Specialists, and the Grants Management Officer who were involved in
                     monitoring the sampled patient safety grants. In addition, when the
                     official grant file did not contain the required documentation, OIG
                     contacted the responsible AHRQ staff to (1) verify that the
                     documentation had not been misfiled, (2) determine if documentation
                     was received after OIG’s data collection occurred, and (3) identify and
                     clarify the enforcement actions, if any, AHRQ took to obtain delinquent
                     reports.
                     Standards
                     This study was conducted in accordance with the “Quality Standards for
                     Inspections” issued by the President’s Council on Integrity and
                     Efficiency and the Executive Council on Integrity and Efficiency.




                     20 OIG used criteria contained in 45 CFR §§ 74.51, 74.52, and 74.71 to establish whether
                       AHRQ appropriately closed the official grant file.
                     21 One Project Officer was unavailable due to a lengthy illness. The other Project Officer
                       had left AHRQ’s employment prior to the start of this study.



  OEI-07-04-00460    AGENCY FOR HEALTHCARE RESEARCH AND QUALITY: MONITORING PATIENT SAFETY GRANTS
                                                                                                                   5
                                                                            Report Template Version = 04-30-05_rev.15




Δ     F I N D I N G S                  



                                                           All of the grants in the sample used
        Most Financial Status Reports were not
                                                           annual reporting periods, and
                          received or were late
                                                           45 CFR § 74.52(a)(1)(iv) requires
                      grantees to submit completed Financial Status Reports no later than
                      90 calendar days after the end of each annual reporting period.

                      The Financial Status Report is necessary for monitoring grantees’
                      financial obligations as they relate to the terms and conditions of the
                      grants. AHRQ staff use this report to assess expenditures that were
                      charged against the grants and to determine if grantees have obligated
                      these funds. This report is also useful in measuring how grantees are
                      expending funds and whether such spending is in the amount and at the
                      pace anticipated for the projects.
                      Thirty percent of the Financial Status Reports were not received
                      Of the 90 Financial Status Reports in the sample population that were
                      required to be in the official grant file for FY 2001 through FY 2003, 22
                                                                                                     OIG identified
                       Table 1: Financial Status Reports Not in File
                       and Associated Dollars                                                        27 instances in
                                         Year            Not in File                       Dollars which these
                                    FY 2001                          0                           $0 reports were not in
                                    FY 2002                          2               $2,255,454 the file. When OIG
                                    FY 2003                         25              $19,299,625 made a follow-up
                                        Total                       27              $21,555,079 request 1 month
                         Source: Office of Inspector General analysis of official grant files, 2005. later, AHRQ staff
                      confirmed that these reports still had not been received. These grants
                      represented $21.5 million in awards that lacked a formal accounting
                      and review of the grantees’ financial expenditures (Table 1). The two
                      grants that lacked Financial Status Reports in FY 2002 also lacked
                      these reports for FY 2003. As a result, there is no evidence that AHRQ
                      reviewed Financial Status Reports for these grants during that 2-year
                      period.




                      22 Not all grants spanned the period of OIG review, FY 2001 through FY 2003. Some
                        grants were only 1-year or 2-year grants.



    OEI-07-04-00460   AGENCY FOR HEALTHCARE RESEARCH AND QUALITY: MONITORING PATIENT SAFETY GRANTS
                                                                                                                   6
                                                                                 Report Template Version = 04-30-05_rev.15




F   I N D I N G        S


                      OIG found that for the 12 grants that AHRQ identified as either being
                      complex or requiring additional administrative efforts:23
                      o in FY 2001, all Financial Status Reports were in the file;

                      o in FY 2002, 2 Financial Status Reports were not received; and

                      o in FY 2003, 9 Financial Status Reports were not received.

                      Despite AHRQ’s acknowledgment that these grants were complex or
                      required additional administrative efforts, the Financial Status Reports
                      for these grants comprised 11 of the 27 reports that were not received.
                      Additionally, 43 percent of Financial Status Reports were not timely
                      OIG identified 39 instances over the 3-year period in which Financial
                      Status Reports were not received timely. These grants represented
                      $29 million in awards that AHRQ reviewed later than it would have,
                      provided the grantee had submitted the Financial Status Report as
                      Federal regulations require (Table 2).

                      Table 2: Late Financial Status Reports

                                     Financial Status Report - Days Past Due and Associated Dollars
                             Year       1-30   31-60    61-90 91-180 181-365               >365       Total          Dollars
                       FY 2001             2       3          0          1           7          2        15    $14,232,043
                       FY 2002             2       3          0          6           6          2        19    $12,298,535
                       FY 2003             1       2          0          1           1          0          5     $2,562,138
                             Total         5       8          0          8          14          4        39    $29,092,716
                                                    Source: Office of Inspector General analysis of official grant files, 2005.


                      The combined dollars for reports that were not received or were late
                      over the 3-year review period totaled $50.6 million.24 AHRQ’s Grants
                      Management Officer stated that AHRQ currently lacks a system to
                      track the receipt of Financial Status Reports.




                      23 Due to a late start date for one grant and a 1-year suspension for another grant,
                           11 grants had Financial Status Reports due in FY 2001 and FY 2002, while all 12 grants
                           had Financial Status Repots due in FY 2003.
                      24 Of the 90 Financial Status Reports OIG expected to find in the review, OIG found that
                           24 were received timely, 27 were not received, and 39 were received late. Of the reports
                           reviewed, all were complete and notations contained within the official grant file
                           indicated that AHRQ staff reviewed the Financial Status Reports and compared the
                           expenditures listed against the funding approved for the grant.



    OEI-07-04-00460   AGENCY FOR HEALTHCARE RESEARCH AND QUALITY: MONITORING PATIENT SAFETY GRANTS
                                                                                                                              7
                                                                           Report Template Version = 04-30-05_rev.15




F   I N D I N G 
S


                      Misinterpretation of no-cost extensions may contribute to late Financial
                      Status Reports
                      Twenty of the twenty-five Financial Status Reports not received for
                      FY 2003 involved grants with no-cost extensions. AHRQ staff informed
                      OIG of their belief that a no-cost extension also extended the due date
                      for the Financial Status Report. While regulations in
                      45 CFR § 74.25(d)(2) allow grantees to initiate a no-cost extension up to
                      12 months prior to the expiration date of the award, grantees must
                      continue to comply with the reporting requirements specified in
                      45 CFR § 74.52(a)(1), unless they also request an extension of the
                      Financial Status Report. OIG found no evidence of such requests
                      during the review.
                      Grants Management Specialists offered additional explanations for late
                      reports
                      Several Grants Management Specialists with whom OIG spoke noted
                      that grantees might be confused about AHRQ’s reporting requirements.
                      This confusion may be due to their involvement with other HHS
                      awarding agencies that conduct similar research grants, but have
                      different reporting procedures. For example, many of these agencies
                      use electronic systems to collect Financial Status Reports, whereas
                      AHRQ requires a paper format. As a result, grantees may be uncertain
                      about the reporting process used for a particular grant. One specialist
                      stated that there is often a lack of communication between the Principal
                      Investigator and business office on how the reports are to be submitted.
                      AHRQ’s reporting requirements specify that the terms and conditions of
                      the grant may go to the Principal Investigator; however, two specialists
                      told OIG that reporting requirements are not always shared with the
                      grantee’s business office, which is normally responsible for completing
                      and submitting the Financial Status Report.
                      Enforcement tools were not used to ensure timely receipt of Financial Status
                      Reports
                      AHRQ staff informed OIG that they have used enforcement actions for
                      grantees that did not submit their Financial Status Reports, but to little
                      effect. However, for the grant files OIG reviewed, AHRQ did not use the
                      authorities provided in Federal regulation and departmental policies
                      (e.g., disallowance of funds) to obtain the delinquent Financial Status
                      Reports.25 Only 2 of the 27 official grant files without Financial Status


                      25 45 CFR § 74.62(a) and GPD Part 3.06.B.4.d.




    OEI-07-04-00460   AGENCY FOR HEALTHCARE RESEARCH AND QUALITY: MONITORING PATIENT SAFETY GRANTS
                                                                                                                  8
                                                                           Report Template Version = 04-30-05_rev.15




F   I N D I N G        S


                      Reports contained documentation of AHRQ’s requests for the reports
                      (e.g., electronic mail or telephone calls), which are not enforcement
                      actions.


    Performance reports generally complied with                At the time of OIG’s review of
                                                               the official grant files,
                          Federal requiremen
                                   requirementts
                                               s
                                                               97 percent of the most recently
                      required annual performance reports were in the file, and 94 percent
                      were received timely, including all 12 grants that AHRQ identified as
                      either being complex or requiring additional administrative efforts.
                      OIG found that all but one of these performance reports documented the
                      accomplishments of the grant’s goals, objectives, research findings, and
                      the reasons particular goals (if any) were not met.

                      AHRQ attributed the timely receipt of performance reports to the
                      professional relationship between Project Officers and Principal
                      Investigators, involving frequent communication to monitor the overall
                      progress of the grant. AHRQ staff stated that during these
                      communications, the Principal Investigator is informed or reminded
                      that performance reports must be received before authorization of the
                      next year’s funding. In addition, AHRQ has in place a system to track
                      the receipt of these reports, which also contributes to the successful
                      timely receipt of these reports.


               Federal requirements for grant closeouts            Grantees must submit all
                                                                   required reports within
                                          were not met
                                                                   90 calendar days after
                      completion of the grant  pursuant  to Federal regulation
                      45 CFR § 74.71(a). Seven of the thirty-nine sampled grants were
                      eligible for closeout. Two of the seven grants were closed in accordance
                      with Federal requirements. Three grants lacked documentation of
                      required closeout reports, liquidation of assets, and/or results of the
                      final research. The remaining two grant files contained all required
                      grant closeout documents; however, AHRQ staff had not completed the
                      closeout process.

                      AHRQ staff stated that the closeout of these grants was delayed due to
                      a large backlog of grant files awaiting completion of the closeout
                      process. Patient safety grants comprised only part of this overall
                      backlog. Recently, AHRQ hired a contractor to assist in reducing this
                      backlog and to assist in the collection of delinquent reports for closeout.

    OEI-07-04-00460   AGENCY FOR HEALTHCARE RESEARCH AND QUALITY: MONITORING PATIENT SAFETY GRANTS
                                                                                                                  9
                                                                           Report Template Version = 04-30-05_rev.15




F   I N D I N G        S


                      AHRQ staff told OIG that the contractor’s actions improved the
                      efficiency of the closeout process and reduced the number of grants
                      awaiting closeout. The lack of timely closeout inhibits AHRQ’s ability to
                      provide prompt payments to grantees for allowable reimbursable costs
                      and to ensure grantees promptly refund any balances of unobligated
                      funds that have been advanced or paid, as Federal regulations require.26
                      Available enforcement actions are not always used
                      For the grants reviewed, AHRQ staff stated they did not always use
                      available enforcement actions to achieve grantee compliance with
                      Federal and departmental closeout requirements. Many of the
                      enforcement tools (e.g., disallowance of funds) identified in the terms
                      and conditions of awards and in Federal regulation are ineffective at the
                      closeout stage of the grant because all grant payments have been made.




                      26 45 CFR § 74.71.




    OEI-07-04-00460   AGENCY FOR HEALTHCARE RESEARCH AND QUALITY: MONITORING PATIENT SAFETY GRANTS
                                                                                                                 10
                                                                           Report Template Version = 04-30-05_rev.15




E X E C U T I V E                  S U      M M A R Y
Δ      R E C O M M E N D A T I O N S                                       



                      RECOMMENDATIONS
                      The AHRQ practices inhibit its ability to adequately oversee and
                      evaluate grantees’ overall performance and its stewardship of Federal
                      funds. While AHRQ appears to manage the receipt of performance
                      reports well, other areas identified in this report reveal weaknesses that
                      impact the accountability of patient safety grant funds.

                      Therefore, OIG recommends that AHRQ:
                      Require submission of interim financial information of prior year
                      expenditures before future funding is authorized. The AHRQ
                      methods for obtaining this information could include: semiannual
                      Financial Status Reports, expansion of financial information currently
                      reported on the performance reports, or a separate process for
                      accounting for financial expenditures.
                      Establish a tracking system for Financial Status Reports. AHRQ staff
                      reported that the system for tracking performance reports was important
                      to the timely receipt of performance reports. Thus, AHRQ should use
                      lessons learned from this system while implementing a similar system for
                      Financial Status Reports.

                      Require grantees with no-cost extensions to submit Financial Status
                      Reports in compliance with Federal requirements. Clarification of this
                      Federal requirement for AHRQ staff and grantees is needed to ensure
                      compliance. Grantees with no-cost extensions must submit Financial
                      Status Reports at least annually, unless they specifically request and
                      receive an extension.
                      Ensure that grants awaiting closeout are closed promptly. AHRQ
                      should continue to take positive steps to eliminate the backlog of grants
                      awaiting closeout and to ensure that future closeouts are processed timely.


                      AGENCY COMMENTS
                      AHRQ responded that it agrees with the findings in the report and that
                      the recommendations are reasonable. AHRQ indicated that the
                      recommendations reinforce ongoing improvements begun subsequent to
                      the FYs that we reviewed or support already envisioned activities.
                      Specifically, AHRQ indicated that it (1) can pursue the use of the
                      progress report to identify the status of prior year funds, (2) has begun
                      development of a tracking system for Financial Status Reports, (3) will
                      develop a procedure to ensure compliance with Federal regulations

    OEI-07-04-00460   AGENCY FOR HEALTHCARE RESEARCH AND QUALITY: MONITORING PATIENT SAFETY GRANTS
                                                                                                                 11
                                                                           Report Template Version = 04-30-05_rev.15




R   E C O       M M E N D A T             I O N        S


                      when grantees make use of no-cost extensions, and (4) has made
                      progress in dropping closeout periods from 400 days to 114 days. The
                      complete text of AHRQ comments can be found in the Appendix.


                      OFFICE OF INSPECTOR GENERAL RESPONSE
                      OIG recognizes the positive actions AHRQ has both taken or is planning
                      to meet the intent of our second and third recommendations as well as
                      the agency’s progress toward compliance with closeout deadlines, our
                      fourth recommendation. In its final management decision
                      memorandum, OIG requests AHRQ to provide more specific information
                      on how it intends to address the first and fourth recommendations.
                      Regarding the first recommendation, AHRQ indicates that it can pursue
                      the use of progress reports to gather financial information on prior-year
                      funds. Committing to do so or providing another method to obtain
                      interim financial status information would address this
                      recommendation. As for the fourth recommendation, despite significant
                      progress in reducing its backlog AHRQ remains out of compliance with
                      the 90-day requirement for grants ending in 2005. AHRQ does
                      anticipate “. . . continued improvement as grantees realize that AHRQ
                      considers submission of final reports a priority.” AHRQ may want to
                      provide the actions it will take if grantees fail to realize the priority it
                      has placed on the submission of final reports.




    OEI-07-04-00460   AGENCY FOR HEALTHCARE RESEARCH AND QUALITY: MONITORING PATIENT SAFETY GRANTS
                                                                                                                 12
                                                                           Report Template Version = 04-30-05_rev.15




Δ      A P P E N D I X                    


                      Agency for Healthcare Research and Quality Comments




    OEI-07-04-00460   AGENCY FOR HEALTHCARE RESEARCH AND QUALITY: MONITORING PATIENT SAFETY GRANTS
                                                                                                                 13
                                                                         Report Template Version = 04-30-05_rev.15




A P P E N D         I X 





  OEI-07-04-00460   AGENCY FOR HEALTHCARE RESEARCH AND QUALITY: MONITORING PATIENT SAFETY GRANTS
                                                                                                               14

                                                                         Report Template Version = 04-30-05_rev.15




A P P E N D         I X 





  OEI-07-04-00460   AGENCY FOR HEALTHCARE RESEARCH AND QUALITY: MONITORING PATIENT SAFETY GRANTS
                                                                                                               15

                                                                              Report Template Version = 04-30-05_rev.15




Δ     A C K N O W L E D G M E N T S                                       



                      This report was prepared under the direction of Brian T. Pattison,
                      Regional Inspector General for Evaluation and Inspections in the
                      Kansas City regional office, and Gina C. Maree, Deputy Regional
                      Inspector General. Other principal Office of Evaluation and Inspections
                      staff who contributed include:

                      Perry A. Seaton, Team Leader
                      Zula Crutchfield, Project Leader

                      Dennis Tharp, Program Analyst

                      Brian T. Whitley, Program Analyst

                      Alan Levine, Program Specialist

                      Elise Stein, Director, Public Health and Human Services



                      Technical Assistance

                      Barbara Tedesco, Mathematical Statistician




    OEI-07-04-00460   AGENCY FOR HEALTHCARE RESEARCH AND QUALITY: MONITORING PATIENT SAFETY GRANTS
                                                                                                                    16
